         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Audit of Fermi National Accelerator
Laboratory's NOvA Project




OAS-RA-L-10-02                         April 2010
DOE F 1325.8
(08-93)
United States Government                                                             Department of Energy


memorandum
         DATE:       April 16, 2010                                           Audit Report OAS-RA-L-10-02
    REPLY TO
                     IG-32 (A10RA004)                                            Number:
     ATTN OF:

    SUBJECT:         Report on "Audit of Fermi National Accelerator Laboratory's NOvA Project"
               TO:   Acting Manager, Fermi Site Office
                     Manager, Chicago Office

                     INTRODUCTION AND OBJECTIVE

                     The NuMI Off-Axis electron neutrino (ve) Appearance (NOvA) experiment is a
                     neutrino physics research project conducted by the Office of Science's Fermi National
                     Accelerator Laboratory (Fermilab). The goal of the NOvA experiment is to advance
                     the understanding of neutrino particles.

                     Fermilab, in coordination with the University of Minnesota (University), must complete
                     an accelerator and detector system needed for the experiment. Fermilab is upgrading
                     its accelerator complex to increase beam power and constructing a 220 ton "Near
                     Detector" that will monitor the neutrino beam as it leaves Fermilab. The University is
                     responsible for constructing a detector hall and fabricating components for the 14,000
                     ton "Far Detector," near Ash River, Minnesota, 503 miles away.

                     The expected completion date of the NOvA Project is November 2014 with a total
                     project cost of $278 million, of which $55 million was funded by the American
                     Recovery and Reinvestment Act of 2009 (Recovery Act). The University originally
                     received $40 million in Recovery Act funding through a cooperative agreement
                     administered by the Department of Energy's (Department) Chicago Office (Chicago
                     Office) to accelerate construction of the Far Detector hall and detector fabrication by
                     nine to twelve months. At the time of our review, the schedule showed three months of
                     acceleration of the Far Detector hall and up to ten months acceleration in detector
                     component procurements. Fermilab received $15 million to advance the procurement
                     of items for the detector and accelerator parts by as much as ten months. Because of
                     favorable construction bids, the Department was able to de-obligate $9.5 million of
                     Recovery Act funds from the University and plans to re-obligate the funds to Fermilab
                     to reduce risk in its procurement. As of February 2010, approximately $8.4 million, or
                     15 percent, of the $55 million in Recovery Act funding has been spent.

                     Due to the importance of the Office of Science's mission and the significant investment
                     in this project, we initiated this audit to determine whether the Office of Science
                     implemented controls over the NOvA Project and its use of Recovery Act funds.
CONCLUSION AND OBSERVATIONS

At the time of our audit, we found that NOvA Project managers were generally employing
sound project management practices, such as preparation of project execution plans,
acquisition strategies, and risk analysis and mitigation plans required by Department
Order 413.3A, Program and Project Management for the Acquisition of Capital Assets.
Further, we found that Recovery Act funds were adequately segregated and were
disbursed in a timely manner. Also, after site visits to Fermilab and the University, we
found that both were generally in compliance with Recovery Act reporting guidelines, as
well as Davis-Bacon Act requirements. We did, however, identify certain issues relating
to the Chicago Office's administration of the cooperative agreement and the University's
reporting on jobs funded under the Recovery Act.

Recovery Act Administration

Although the Chicago Office had performed certain review activities, it had not
implemented additional oversight controls specific to the University's use of Recovery Act
funds at the time of our field work. The Chicago Office, for example, had not engaged in
post Recovery Act on-site monitoring and oversight reviews of the funds control system,
the allowability of costs claimed, the number of jobs created or retained, or flow-down
requirements of the project. Rather, the Chicago Office relied on its past experience with
the University and its use of rates approved by the Department of Health and Human
Services, and other reviews such as those performed under Office of Management and
Budget (OMB) Circular A-133 and of the University's quarterly reports to
FederalReporting.gov. The Chicago Office, finalized a monitoring and oversight plan to
review Recovery Act awards in March 2010, with the intention of conducting the reviews
throughout the Spring of 2010.

Further, the Chicago Office had not incorporated revisions to the Special Terms and
Conditions into the cooperative agreement in a timely manner. To ensure compliance
with the Recovery Act requirements the Department developed Special Terms and
Conditions that were to be included in all cooperative agreements funded by the Recovery
Act. In May 2009, the Department provided revised Special Terms and Conditions to its
program and field offices. The Chicago Office, however, did not send them to the
University until November 2009 and did not incorporate them into cooperative agreement
until February 2010 because of competing work priorities.

Recovery Act Job Reporting

We were unable to confirm the number of jobs funded by the Recovery Act reported by
the University on its first quarterly report and publicly available on Recovery.gov. We
learned that the University reported the average number of workers at the Far Detector
construction site; instead of indentifying the jobs created or retained using the full time
equivalent method prescribed by the OMB. According to University officials, the OMB
guidance was not specific on how to report workers at the vendor-level and, therefore,
they used the estimates provided by the vendors. Subsequently, OMB simplified its



                                              2
guidance to capture more fully the number of jobs created or retained. The revised OMB
guidance, for example, clarified the requirement to include employees at the vendor-level,
eliminated subjectivity in deciding which employees to count, and simplified the data used
in the full time equivalent calculation. The Chicago Office stated that the University has
revised their methodology to capture the number of jobs created or retained to meet the
revised OMB guidance.

SUGGESTED ACTIONS

To address the issues outlined above, we suggest that the Manager, Chicago Office ensure
that the planned additional monitoring and oversight activities be performed over financial
assistance recipients to ensure compliance with Recovery Act requirements.

MANAGEMENT COMMENTS

Fermi Site Office and the Chicago Office officials commented that they had performed
reviews before awarding the cooperative agreement to the University such as the
previously mentioned reviews of the University's quarterly reports and Circular A-133
audits. We modified the report to reflect management's comments and actions taken since
the performance of our field work.

Since no formal recommendations are being made in this report, a formal response is not
required.

We appreciated the cooperation of the various Department elements and all the staff at the
contractor and recipient sites during this effort.




                                             David Sedillo, Director
                                             NNSA & Science Audits Division
                                             Office of Inspector General

Attachment

cc: Team Leader, Office of Risk Management, CF-1.2
    Dianne Williams, Office of Risk Management, CF-1.2
    Audit Liaison, Office of Science, SC-25
    Audit Liaison, Chicago Office




                                             3
                                                                                       Attachment


SCOPE AND METHODOLOGY

This audit was performed between October 2009 and March 2010. Our audit included the
activities of the Department of Energy's Chicago Office - Integrated Support Center in Argonne,
Illinois; the Fermi Site Office and the Fermi National Accelerator Laboratory in Batavia, Illinois;
and, the University of Minnesota in Minneapolis, Minnesota.

To accomplish the audit objective, we reviewed and evaluated documentation related to the
NuMI Off-Axis electron neutrino (ve) Appearance (NOvA) Project as well as interviewed key
personnel responsible for the project.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. Also, we considered the establishment of performance measures in
accordance with the Government Performance and Results Act of 1993 as they related to the
audit objective. There were no performance measures specific to the NOvA Project. We relied
on computer processed data during our audit. We traced the data to supporting documents to
validate the reliability of the information as necessary to accomplish our audit objectives.

Management waived an exit conference.
                                                               IG Report No. OAS-RA-L-10-02

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
